1

PROOF OF SERVICE
I Do Hereby Declare as Follows:
That I am a citizen, over the legal age of 18 years and not
a party to the within litigation; that my residence address
is 2838 Esplanade, #15, Chico, California 95973;
That on the date entered below, I served:
PETITION FOR WRIT OF CERTIORI
PROOF OF SERVICE
CERTIFICATE OF WORD COUNT
onEric Thomas Nielsen, SBN 232989
Michael Louis Gianelli, SBN 70950
GIANELLII NIELSEN
A Professional Law Corporation
1014 16th Street, Modesto, CA 95354
( X) by placing a copy thereof enclosed in a sealed
envelope with first class postage affixed
thereto, in the U.S. mail at Chico, California, addressed
as depicted above.
I declare under penalty of perjury under the laws of
the State of California that theforegoing is true and
correct.
Dated- September 11, 2020.

Larry .Dick

